  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL


  NEIGHBORHOOD DIABETES, INC.,
      SUBMITTED CLAIMS FOR
DIABETIC TESTING SUPPLIES WITHOUT
 THE KL MODIFIER IN ACCORDANCE
     WITH MEDICARE BILLING
          REQUIREMENTS


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Gloria L. Jarmon
                                                  Deputy Inspector General

                                                        January 2013
                                                        A-09-11-02073
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

  For calendar year 2010, Neighborhood Diabetes, Inc., submitted claims for diabetic testing
  supplies without the KL modifier in accordance with Medicare billing requirements.

WHY WE DID THIS REVIEW

We performed this review as part of a response to a request from the Senate Special Committee
on Aging that we determine whether durable medical equipment suppliers correctly coded
Medicare claims for diabetic testing supplies delivered by mail to beneficiaries. Medicare
guidance requires suppliers to use the KL modifier on all claims for mail-order diabetic testing
supplies, which are reimbursed at a lower amount than supplies provided at local supplier
storefronts (walk-in supplier).

After analyzing claim data, we judgmentally selected for review the supplier Neighborhood
Diabetes, Inc. (Neighborhood). Our research indicated that Neighborhood was a mail-order
supplier of diabetic testing supplies that had billed in calendar year (CY) 2010 a high dollar
amount for claims for these supplies without using the KL modifier. In addition, we selected two
suppliers from an analysis provided by the Centers for Medicare & Medicaid Services (CMS).
This report covers Neighborhood, which has locations in several States. Future reports will
cover the two other suppliers.

Our objective was to determine whether Neighborhood submitted claims for diabetic testing
supplies without the KL modifier in accordance with Medicare billing requirements.

BACKGROUND

Beneficiaries may obtain diabetic testing supplies from a walk-in supplier or a mail-order
supplier, which delivers the supplies through a common carrier (e.g., the U.S. Postal Service or
FedEx). However, supplies delivered to a beneficiary without use of a common carrier, such as
supplies delivered in a company-owned vehicle, are not considered mail-order supplies. CMS’s
Medicare Claims Processing Manual requires that suppliers use the KL modifier on all claims
for mail-order diabetic testing supplies. On November 29, 2010, CMS finalized a rule to revise
the definition of “mail order item” in Federal regulations to include “any item … shipped or
delivered to a beneficiary’s home, regardless of the method of delivery.” The target
implementation date for the revised definition is July 1, 2013.

WHAT WE FOUND

For CY 2010, Neighborhood submitted claims for diabetic testing supplies without the KL
modifier in accordance with Medicare billing requirements. Of 100 sampled line items, 99 were
properly submitted without the KL modifier because Neighborhood used company-owned
vehicles to deliver diabetic testing supplies to Medicare beneficiaries. Under Medicare
requirements in effect until CMS implements the revised definition of a mail-order item, supplies
delivered by company-owned vehicles are not considered mail-order items. Therefore, claims
for these supplies do not require use of the KL modifier. The remaining sampled line item


Neighborhood Diabetes, Inc.’s Claims for Diabetic Testing Supplies (A-09-11-02073)                 i
should have been submitted with the KL modifier because Neighborhood had delivered the
diabetic testing supplies by mail. Neighborhood discovered this error during our audit and
resubmitted the claim with the KL modifier. Consequently, this report has no recommendations.




Neighborhood Diabetes, Inc.’s Claims for Diabetic Testing Supplies (A-09-11-02073)              ii
                                                    TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION.................................................................................................................... 1

          Why We Did This Review ........................................................................................... 1

          Objective ....................................................................................................................... 1

          Background .................................................................................................................. 1
                Diabetic Testing Supplies .................................................................................. 1
                Medicare Reimbursement of Diabetic Testing Supplies ................................... 2
                Walk-In and Mail-Order Suppliers .................................................................... 2
                Required Use of KL Modifier for Mail-Order Diabetic Testing Supplies......... 2
                Change in Federal Definition of “Mail-Order Item” ......................................... 2
                Neighborhood Diabetes, Inc. ............................................................................. 3

          How We Conducted This Review ............................................................................... 3

RESULTS OF REVIEW ......................................................................................................... 4

APPENDIXES

          A: Audit Scope and Methodology.............................................................................. 5

          B: Related Office of Inspector General Reports ...................................................... 7




Neighborhood Diabetes, Inc.’s Claims for Diabetic Testing Supplies (A-09-11-02073)                                                              iii
                                              INTRODUCTION

WHY WE DID THIS REVIEW

We performed this review as part of a response to a request from the Senate Special Committee
on Aging that we determine whether durable medical equipment suppliers correctly coded
Medicare claims for diabetic testing supplies delivered by mail to beneficiaries. Medicare
guidance requires suppliers to use the KL modifier on all claims for mail-order diabetic testing
supplies, which are reimbursed at a lower amount than supplies provided at local supplier
storefronts (walk-in supplier).

After analyzing claim data, we judgmentally selected for review the supplier Neighborhood
Diabetes, Inc. (Neighborhood). Our research indicated that Neighborhood was a mail-order
supplier of diabetic testing supplies that had billed in calendar year (CY) 2010 a high dollar
amount for claims for these supplies without using the KL modifier. Because we considered
Neighborhood a mail-order supplier, we expected that all of its claims for diabetic testing
supplies would have been billed with the KL modifier. In addition, we selected two suppliers
from an analysis provided by the Centers for Medicare & Medicaid Services (CMS). This report
covers Neighborhood, which has locations in several States. Future reports will cover the two
other suppliers. 1

OBJECTIVE

Our objective was to determine whether Neighborhood submitted claims for diabetic testing
supplies without the KL modifier in accordance with Medicare billing requirements.

BACKGROUND

Diabetic Testing Supplies

According to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Social Security Act, Medicare
Part B covers durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS).
DMEPOS includes blood glucose monitors that physicians prescribe for diabetics, whether they
are insulin-treated or non-insulin-treated. Part B also covers diabetic testing supplies, such as
blood-testing strips (test strips), lancets, glucose control solutions, and spring-powered lancet
devices for patients for whom the glucose monitor is covered.

To obtain a reading of the blood-glucose level, the patient uses a disposable sterile lancet to draw
a drop of blood, places it on a test strip, and inserts the test strip into a home blood-glucose
monitor. These monitors enable certain patients to better control their blood-sugar levels by
frequently checking those levels and appropriately contacting a physician for advice and
treatment.




1
    Reports A-09-12-02035 and A-09-12-02053 will cover the two other suppliers.


Neighborhood Diabetes, Inc.’s Claims for Diabetic Testing Supplies (A-09-11-02073)                  1
Medicare Reimbursement of Diabetic Testing Supplies

Medicare’s fee schedule for DMEPOS establishes the maximum amounts reimbursed to
suppliers for diabetic testing supplies. The amount allowed by Medicare for payment for an
individual item, such as a box of test strips, is equal to the lesser of the fee schedule amount or
the amount charged by a supplier. Medicare pays the beneficiary or the supplier the amount
allowed for payment, less the beneficiary share (i.e., deductibles and coinsurance). For a
supplier to be reimbursed by Medicare for a claim for any quantity of diabetic testing supplies,
the supplier is required to maintain supporting documentation, including but not limited to a
physician order and proof of delivery.

Walk-In and Mail-Order Suppliers

Beneficiaries may obtain diabetic testing supplies from a walk-in supplier or a mail-order
supplier. A walk-in supplier has a physical location where beneficiaries or their caregivers can
pick up diabetic testing supplies. A mail-order supplier receives requests for supplies from
beneficiaries remotely (e.g., by mail, phone, or email or through a Web site) and delivers the
supplies through a common carrier (e.g., the U.S. Postal Service or FedEx). Supplies delivered
to a beneficiary without use of a common carrier, such as supplies delivered in a company-
owned vehicle, are not considered mail-order supplies. 2

Required Use of KL Modifier for Mail-Order Diabetic Testing Supplies

CMS’s Medicare Claims Processing Manual (Pub. No. 100-04) requires that suppliers use the
KL modifier 3 on all claims for diabetic testing supplies delivered by mail to Medicare
beneficiaries (chapter 36, section 20.5.4.1). When the KL modifier was introduced on
July 1, 2007, it was used only as an informational modifier to identify mail-order supplies, with
no impact on the Medicare reimbursement amount. However, the Medicare Improvements for
Patients and Providers Act of 2008, P.L. No. 110-275, required a 9.5-percent reduction in the fee
schedule amounts for certain items, including diabetic testing supplies delivered by mail on or
after January 1, 2009, in any geographical area (section 154(a)(2)). Effective January 1, 2009,
the KL modifier became a pricing modifier, reducing the reimbursement for diabetic testing
supplies delivered by mail.

Change in Federal Definition of “Mail-Order Item”

On July 13, 2010, CMS issued a notice of proposed rulemaking in the Federal Register to revise
the definition of “mail order item.” The proposed rule states that CMS “discovered that suppliers

2
 Facts about the DMEPOS Competitive Bidding Program Round 1 Rebid: Mail-Order Diabetic Supplies. Issued
September 25, 2009, by Palmetto GBA, Competitive Bidding Implementation Contractor.
3
 A modifier is either alphanumeric or two letters reported with a Healthcare Common Procedure Coding System
(HCPCS) code and is designed to give Medicare and commercial payers additional information needed to process a
claim. (HCPCS codes are used throughout the health care industry to standardize coding for medical procedures,
services, products, and supplies.) Medicare requires use of the KL modifier for only the following mail-order
diabetic testing supplies: test strips, glucose control solutions, lancet devices, lancets, and replacement batteries for
blood glucose monitors.


Neighborhood Diabetes, Inc.’s Claims for Diabetic Testing Supplies (A-09-11-02073)                                          2
… tried to adopt certain approaches to circumvent the mail order definition. … For example,
some mail order suppliers considered purchasing a fleet of cars to deliver [diabetic testing
supplies] to the beneficiary’s home so as not to be considered a mail order supplier” (75 Fed.
Reg. 40040, 40214). These suppliers would be able to increase their level of reimbursement
because they would be paid the same amount as walk-in suppliers.

CMS finalized the rule on November 29, 2010, to include the following definition of a
mail-order item at 42 CFR § 414.202: “ … any item (for example, diabetic testing supplies)
shipped or delivered to the beneficiary’s home, regardless of the method of delivery” (75 Fed.
Reg. 73170, 73623). This definition will be effective when CMS implements the national
mail-order DMEPOS Competitive Bidding Program for diabetic testing supplies, whose target
implementation date is July 1, 2013. 4

Neighborhood Diabetes, Inc.

Neighborhood is a durable medical equipment supplier that specializes in the sale of diabetic
supplies. Neighborhood is based in Woburn, Massachusetts, with offices in New York City and
Orlando, Florida, and provides diabetic testing supplies, insulin pumps, and pharmaceuticals to
more than 60,000 customers with diabetes. Neighborhood’s customers reside primarily in the
northeast and southeast regions of the United States.

Neighborhood mails diabetic testing supplies or delivers them to customers’ homes using
company-owned vehicles. Neighborhood established its home delivery department in November
2008 to prepare for home delivery services beginning in January 2009, when Medicare reduced
the reimbursement amount for supplies delivered by mail.

HOW WE CONDUCTED THIS REVIEW

For CY 2010, Neighborhood received Medicare Part B payments of $5,482,752 for 72,145 line
items without the KL modifier for test strips, glucose control solutions, lancet devices, and
lancets provided to Medicare beneficiaries. A line item represented an individual type of
diabetic testing supply included on a claim. We reviewed a random sample of 100 of these line
items.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objective.

Appendix A contains the details of our audit scope and methodology. Appendix B contains a list
of related Office of Inspector General reports on Medicare claims for diabetic testing supplies.


4
  Under this program, CMS will award contracts to suppliers to deliver diabetic testing supplies across the Nation to
beneficiaries who elect to have these supplies delivered to them. Medicare will reimburse only contracted suppliers
for providing mail-order diabetic testing supplies.


Neighborhood Diabetes, Inc.’s Claims for Diabetic Testing Supplies (A-09-11-02073)                                      3
                                        RESULTS OF REVIEW

For CY 2010, Neighborhood submitted claims for diabetic testing supplies without the KL
modifier in accordance with Medicare billing requirements. Of 100 sampled line items, 99 were
properly submitted without the KL modifier because Neighborhood used company-owned
vehicles to deliver diabetic testing supplies to Medicare beneficiaries. Under Medicare
requirements in effect until CMS implements the revised definition of a mail-order item, targeted
for July 2013, supplies delivered by company-owned vehicles are not considered mail-order
items. Therefore, claims for these supplies do not require use of the KL modifier. The
remaining sampled line item should have been submitted with the KL modifier because
Neighborhood had delivered the diabetic testing supplies by mail. Neighborhood discovered this
error during our audit and resubmitted the claim with the KL modifier. Consequently, this report
has no recommendations.




Neighborhood Diabetes, Inc.’s Claims for Diabetic Testing Supplies (A-09-11-02073)              4
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

For CY 2010, Neighborhood received Medicare Part B payments of $5,482,752 for 72,145 line
items without the KL modifier for test strips, glucose control solutions, lancet devices, and
lancets provided to Medicare beneficiaries. A line item represented an individual type of
diabetic testing supply included on a claim. We reviewed a random sample of 100 of these line
items. We limited our review of the sampled line items to determining Neighborhood’s
compliance with Medicare billing requirements for use of the KL modifier. We did not review
compliance with other requirements, such as presence of a physician order.

We did not review the overall internal control structure of Neighborhood. Rather, we limited our
review of internal controls to those that were significant to the objective of our audit.

We conducted our audit from October 2011 to August 2012 and performed fieldwork at
Neighborhood’s offices in Woburn, Massachusetts, and New York, New York.

METHODOLOGY

To accomplish our audit objective, we:

    •    reviewed applicable Federal laws, regulations, and guidance;

    •    reviewed Neighborhood’s policies and procedures for (1) receiving and processing
         orders for diabetic testing supplies, (2) maintaining supporting documentation, and
         (3) processing Medicare claims;

    •    interviewed Neighborhood officials to obtain an understanding of Neighborhood’s
         procedures for (1) receiving and processing orders for diabetic testing supplies,
         (2) maintaining supporting documentation, (3) ensuring that the KL modifier was used
         on Medicare claims for mail-order supplies, and (4) processing Medicare claims;

    •    analyzed CY 2010 Medicare paid claim data to identify line items that Neighborhood
         submitted without the KL modifier for test strips, glucose control solutions, lancet
         devices, and lancets;

    •    created a sampling frame of 72,145 line items for test strips, glucose control solutions,
         lancet devices, and lancets without the KL modifier and randomly selected a sample of
         100 line items;

    •    obtained supporting documentation from Neighborhood for each sampled line item and
         reviewed it to determine whether Neighborhood should have used the KL modifier when
         it submitted claims for diabetic testing supplies delivered by mail; and

    •    shared the results of our review with Neighborhood.


Neighborhood Diabetes, Inc.’s Claims for Diabetic Testing Supplies (A-09-11-02073)                   5
                                                                                     APPENDIX A

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objective.




Neighborhood Diabetes, Inc.’s Claims for Diabetic Testing Supplies (A-09-11-02073)             6
       APPENDIX B: RELATED OFFICE OF INSPECTOR GENERAL REPORTS


                                                                                                Date
                          Report Title                                      Report Number      Issued
Supplier Billing for Diabetes Test Strips and Inappropriate                 OEI-04-11-00760   11/07/12
Supplier Activities in Competitive Bidding Areas

Medicare Contractors Lacked Controls To Prevent Millions in                   A-09-11-02027   06/13/12
Improper Payments for High Utilization Claims for Home
Blood-Glucose Test Strips and Lancets

Review of Medicare Claims for Home Blood-Glucose Test                         A-09-08-00044   02/17/11
Strips and Lancets – Durable Medical Equipment
Administrative Contractor for Jurisdiction B

Review of Medicare Claims for Home Blood-Glucose Test                         A-09-08-00046   02/04/11
Strips and Lancets – Durable Medical Equipment
Administrative Contractor for Jurisdiction D

Review of Medicare Claims for Home Blood-Glucose Test                         A-09-08-00045   01/21/11
Strips and Lancets – Durable Medical Equipment
Administrative Contractor for Jurisdiction C

Market Shares of Mail Order Diabetic Testing Strips                         OEI-04-10-00130   12/02/10

Review of Medicare Claims for Home Blood-Glucose Test                         A-09-08-00043   08/30/10
Strips and Lancets – Durable Medical Equipment
Administrative Contractor for Jurisdiction A




Neighborhood Diabetes, Inc.’s Claims for Diabetic Testing Supplies (A-09-11-02073)                  7
